No. 20-5243
IN THE

Supreme Court of the United States
_________
WARREN KEITH HENNESS,
Petitioner,
v.
MIKE DEWINE, et al.,
Respondents.

CERTIFICATE OF SERVICE
I, Gabriel K. Gillett, hereby certify that I am a member of the bar of this Court
and that I have this 31st day of August, 2020, pursuant to this Court’s April 15, 2020
Order and by agreement of counsel, caused a pdf copy of the Brief for the Louis Stein
Center for Law and Ethics at Fordham University School of Law as Amicus Curiae in
Support of Petitioners to be served via electronic service on:
Jean-Claude Andre
Counsel of Record
SIDLEY AUSTIN LLP
555 W. Fifth Street
Suite 4000
Los Angeles, CA 90013
jcandre@sidley.com
Counsel for Petitioner

Benjamin Michael Flowers
Counsel of Record
OHIO ATTORNEY GENERAL
DAVE YOST
30 E. Broad St.
Columbus, OH 43215
benjamin.flowers@ohioattorneygeneral.gov
Counsel for Respondents
__/s/ Gabriel K. Gillett____
Gabriel K. Gillett

